           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

    FULL MEDICAL CONTINUING
       DISABILITY REVIEWS


     March 2010   A-07-09-29147




   EVALUATION
     REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                     Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                               SOCIAL SECURITY
MEMORANDUM

Date:      March 30, 2010                                                                   Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Full Medical Continuing Disability Reviews (A-07-09-29147)


           OBJECTIVE

           The objective of this evaluation was to determine the financial impact to the Disability
           Insurance (DI) and Supplemental Security Income (SSI) programs as a result of
           conducting fewer full medical continuing disability reviews (CDR).

           BACKGROUND

           The Social Security Administration (SSA) administers two programs that provide
           benefits based on disability: the DI and SSI programs. The DI program, established
           under Title II of the Social Security Act (Act), provides benefits to wage earners and
           their families if the wage earner becomes disabled. The Act also provides disability
           benefits for disabled adult children of wage earners who have died or retired and to
           certain disabled widows, widowers, and surviving divorced spouses of deceased wage
                    1                                                                             2
           earners. Most payments under the DI program are funded from the DI Trust Fund.
           The SSI program, established under Title XVI of the Act, provides benefits to financially
           needy individuals who are aged, blind, or disabled. 3 Payments under the SSI program
           are funded from the General Fund.

           After an individual is determined to be disabled, SSA is required to conduct periodic
           CDRs to determine whether the individual continues to be disabled. 4 By regulation,
           review diaries are set based on the likelihood of medical improvement since SSA
           generally cannot find an individual’s disability has terminated without finding medical
           improvement has occurred. Specifically, diaries are set for 6 to 18 months where

           1
               The Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
           2
            Payments to disabled widow(ers) are funded from the Old-Age and Survivors Insurance (OASI) Trust
           Fund.
           3
               The Social Security Act § 1601 et seq., 42 U.S.C. § 1381 et seq.
           4
               20 C.F.R. §§ 404.1589 and 416.989.
Page 2 – The Commissioner


improvement is expected, up to 3 years where improvement is possible, 5 and 5 to
7 years where improvement is not expected (that is, permanent impairments). 6 Further,
a full medical CDR should be conducted no later than 12 months after birth for a child
whose low birth weight was a material contributor to the determination that the child
was disabled under the SSI program. 7

SSA employs a profiling system that uses data from SSA’s records to determine the
likelihood of medical improvement for disabled beneficiaries. SSA selects beneficiaries’
records profiled as having a high likelihood of medical improvement for a full medical
review by disability determination services (DDS). Beneficiaries profiled as having a
medium or low likelihood of medical improvement are sent a mailer questionnaire. 8 If
the completed mailer questionnaire indicates medical improvement, SSA will send the
case to the DDS for a full medical review.

RESULTS OF REVIEW

According to SSA, resource limitations and increases in its core workloads prevented it
from conducting full medical CDRs when they became due. As a result, SSA estimates
a backlog of over 1.5 million full medical CDRs will exist at the end of Fiscal Year
           9
(FY) 2010.

SSA has made, and will continue to make, benefit payments to individuals who would
no longer be eligible if the backlog of 1.5 million full medical CDRs had been conducted
when they became due.

      •   From Calendar Year (CY) 2005 through CY 2010, we estimate SSA will have
          made benefit payments of between $1.3 and $2.6 billion that could have
          potentially been avoided if the full medical CDRs in the backlog had been
          conducted when they became due (see Appendix C). 10




5
 The Commissioner of Social Security can waive the requirement to conduct CDRs on non-permanent
disabilities due every 3 years. 20 C.F.R. §§ 404.1590(g) and 416.990(g).
6
    20 C.F.R. §§ 404.1590(d) and 416.990(d).
7
    20 C.F.R. § 416.990(b)(11).
8
  SSA does not use the mailer questionnaire for CDRs of children receiving SSI or for SSI age 18
redeterminations. An SSI age 18 redetermination is conducted when a child receiving SSI is reevaluated
using adult criteria upon reaching age 18.
9
 SSA defines a “backlog” as CDRs due and selectable that are not able to be released for processing or
are in process, but resources are not sufficient to complete the cases timely.
10
  This does not include payments made under the Medicare and Medicaid programs, which have also
been affected by the decrease in CDRs conducted.
Page 3 – The Commissioner


      •   Although SSA plans to conduct an increased number of full medical CDRs in
          FY 2011, the 1.5-million full medical CDR backlog will most likely remain.
          Therefore, we estimate SSA will pay between $556 million and $1.1 billion during
          CY 2011 that could have potentially been avoided if the full medical CDRs in the
          backlog had been conducted when they became due (see Appendix C).

To avoid benefit payments to individuals who are no longer eligible, SSA will need
sufficient resources to eliminate the full medical CDR backlog and conduct full medical
CDRs that become due each year. However, SSA faces resource challenges in being
able to perform its CDR workload while meeting the growing need to serve the public.

Recent Decrease in CDRs Conducted

At the end of FY 1996, there was a backlog of about 4.3 million CDRs. According to
SSA, the backlog of CDRs occurred because of budget constraints on conducting
CDRs. In response to this CDR backlog, Congress authorized about $4 billion to fund
                                                11
SSA’s 7-year plan to eliminate the CDR backlog. From FY 1996 through FY 2002,
SSA conducted an estimated 9.4 million CDRs and became current with its CDR
workload.

After the special CDR funding expired in                                      Figure 1: Full Medical CDRs Conducted
FY 2002, the number of CDRs                                                       FYs 2004 to 2009 (in thousands)
                                                                        800
conducted decreased, particularly
between FYs 2004 and 2008 with a
decline of approximately 65 percent. In
                                                       CDRs Processed




                                                                        600
fact, the number of full medical CDRs
conducted by SSA decreased from                                         400
681,000 in FY 2004 to 240,000 in
FY 2008 (see Figure 1). According to
                                                                        200
SSA, budgetary constraints caused a
shortfall between the number of CDRs
due and the number conducted each                                        0
year. Therefore, SSA estimates a                                               2004   2005   2006   2007   2008   2009
backlog of 1.5 million full medical CDRs                                                     Fiscal Year
by the end of FY 2010.




11
     The Contract with America Advancement Act of 1996 (Pub. L. No. 104-121 § 103).
Page 4 – The Commissioner


We estimate SSA could potentially identify lifetime Federal benefit savings of almost
$15.8 billion if it had the resources to conduct all 1.5 million full medical CDRs in
FY 2010. 12 The Federal benefit savings includes

     •   SSA lifetime savings of $9.6 billion (DI and OASI Trust Funds and General Fund)
     •   Medicare lifetime savings of $3.2 billion (Medicare Trust Fund)
     •   Medicaid lifetime savings of $3.0 billion (General Fund)

Social Security Benefits Paid to Individuals with a CDR in the Backlog

From CY 2005 through CY 2010, we estimate SSA will have made benefit payments of
between $1.3 and $2.6 billion that could have potentially been avoided if the full
medical CDRs in the backlog had been conducted when they became due. 13 Because
of their complexity, the calculations are presented in Appendix C.

In FY 2010, SSA plans to conduct 329,000 full medical CDRs. 14 Although this is an
increase in the number of full medical CDRs conducted compared to the previous year,
                                                                     15
SSA estimates the backlog will increase by 26,000 full medical CDRs. Therefore,
even with SSA’s plan to conduct 360,000 full medical CDRs in FY 2011, the 1.5 million
full medical CDR backlog will most likely remain. Therefore, we estimate SSA will pay
between $556 million and $1.1 billion during CY 2011 that could have potentially been
avoided if the full medical CDRs in the backlog had been conducted when they became
due (see Appendix C).




12
   SSA estimates each full medical CDR costs $1,000. Therefore, the 1.5 million full medical CDRs would
cost $1.5 billion to conduct. In its FY 2006 CDR Report to Congress, SSA estimated the ratio of program
savings to cost was roughly $10.50 to $1. As a result, we estimate Federal benefit savings of almost
$15.8 billion ($1.5 billion times $10.50). The $10.50 ratio included savings of approximately $6.40 to the
SSI, OASI, and DI programs; $2.10 to the Medicare program; and $2.00 to the Medicaid program. The
ratio of program savings to cost increased to roughly $11.70 in FY 2007 and $12.30 in FY 2008 because
of an increase in the number of SSI age 18 redeterminations, which have high cessation rates. Since SSI
age 18 redeterminations are not included in the CDR backlog, we used the FY 2006 savings for our
analysis. The CDR Report for FY 2009 has not been released.
13
  Our calculation is based on SSA’s estimated cessation and benefit reduction rates. In each CDR
Report to Congress, SSA estimates the number of CDRs that will result in a cessation after all appeals.
SSA also estimates the reduction in benefit payments each year for a 10-year period for the CDRs that
resulted in a cessation. Since SSA does not know what percent of CDRs in the backlog will result in a
cessation, we based our analysis on a range of potential cessation rates: from 6 percent to 12 percent.
For additional information on the selection of these cessation rates, see Appendix C, Page C-2.
14
  As of October 2009, SSA had released 25,338 full medical CDRs and 131,987 mailer CDRs for
processing. Some of the CDR mailers will result in a full medical CDR.
15
 In FY 2009, SSA conducted 316,960 full medical CDRs and had a backlog of almost 1.5 million full
medical CDRs at the end of the year.
Page 5 – The Commissioner


SSA Resources for CDRs

To avoid benefit payments to individuals who are not entitled, SSA needs sufficient
resources to conduct all CDRs when they become due. However, SSA faces resource
challenges in being able to perform the CDRs that become due each year and, at the
same time, meet the growing need to serve the public. This challenge is heightened
given the need to eliminate the full medical CDR backlog.

Furthermore, SSA is challenged to have the DDS resources available to conduct full
medical CDRs given the ever-increasing numbers of initial disability applications. In
FY 2009 alone, SSA received almost 3 million applications for disability benefits, an
increase of 15 percent over FY 2008. As a result, initial claims pending grew to about
770,000 at the end of FY 2009. SSA expects 350,000 more initial disability claims than
first projected for FY 2010 and estimates that the pending level could reach over
1 million during FY 2010.

The increase in initial disability applications challenges SSA’s ability to provide world-
class service, creating workloads that exceed resources. These numbers also create
challenges for SSA with respect to stewardship, forcing the dedication of resources to
processing applications, rather than conducting full medical CDRs, or taking other steps
to ensure program integrity.

However, it is important for SSA to continue striving to ensure that only those entitled to
benefits are receiving them. To do so, SSA should continue working with Congress to
secure the funds necessary to eliminate the existing full medical CDR backlog and
conduct the CDRs that become due each year.

To help ensure SSA receives the funds necessary to conduct the CDRs that become
due each year, we support a self-funding program integrity fund. In July 2009, we
recommended that SSA continue pursuing the establishment of a self-funding program
integrity fund, and SSA agreed to do so. 16 To ensure CDRs are conducted timely, we
believe the mechanism to provide funding for CDRs should not depend on annual
appropriations nor be subject to SSA’s discretion for expending these funds. During the
last several years, significant backlogs arose with costs in the billions because SSA
chose not to conduct all full medical CDRs as they became due. A permanent,
indefinite appropriation will ensure that needed funds are available and SSA cannot use
those funds for other purposes.

A proposal for a self-funding program integrity fund formerly considered by SSA
contained the following elements.

•    Provide authority for SSA to expend a portion of actual collections of erroneous
     payments on activities to prevent, detect, and collect erroneous payments.
     Specifically, the proposal would establish permanent indefinite appropriations,
16
  We made this recommendation in our report on Supplemental Security Income Redeterminations
(A-07-09-29146). Therefore, we do not repeat the recommendation in this report.
Page 6 – The Commissioner


     subject to Office of Management and Budget apportionment, to make available to
     SSA up to 25 percent of the actual overpayments collected during the base FY and
     make available to the Office of the Inspector General up to 2.5 percent of the same
     collected overpayments.

•    Establish a revolving fund that would be financed from SSA’s stewardship/program
     integrity activities’ projected lifetime savings. That is, SSA would be permitted to
     deposit up to 50 percent of the estimated future lifetime program savings from
     processing such program integrity activities as (but not limited to) CDRs, SSI
     redeterminations, Cooperative Disability Investigation Units, and Special Office of
     the General Counsel prosecutions. The Commissioner would be authorized to fund
     initiatives that would yield at least a 150-percent return on investment in a 10-year
     time period. This proposal would link budgeting for cost-effective program integrity
                                    17
     activities with their results.

CONCLUSION AND RECOMMENDATION
SSA has made, and will continue to make, benefit payments to individuals who would
potentially no longer be entitled if the backlog of 1.5 million full medical CDRs had been
conducted when they became due. From CY 2005 through CY 2010, we estimate SSA
will have made benefit payments of between $1.3 and $2.6 billion that could have
potentially been avoided if the full medical CDRs in the backlog had been conducted
when due. Further, although SSA plans to conduct an increased number of full medical
CDRs in FY 2011, the 1.5 million full medical CDR backlog will most likely remain.
Therefore, we estimate SSA will pay benefits of between $556 million and $1.1 billion
during CY 2011 that could have potentially been avoided if the full medical CDRs in the
backlog had been conducted when due.

The growing need to serve the public and the increase in initial disability applications
challenges SSA’s ability to provide world-class service delivery, creating workloads that
exceed resources. These numbers also create challenges for SSA with respect to
stewardship, forcing the dedication of resources to processing applications, rather than
conducting full medical CDRs, or taking other steps to ensure program integrity.
However, it is important for SSA to continue to strive to ensure that only those entitled
to benefits are receiving them.




17
   SSA’s FY 2010 President’s Budget request included a significant increase in funding for program
integrity activities as part of the President’s initiative to make Government more effective and efficient.
The enhanced funding in FY 2010 represents part of a multi-year Government-wide effort intended to
allow SSA to focus more closely on workloads or processes that are most vulnerable to improper
payments. In addition to the base request, SSA requested $485 million specifically for program integrity
workloads, including CDRs and SSI non-medical redeterminations.
Page 7 – The Commissioner


We recommend SSA continue to work with Congress to secure the funds necessary to
eliminate the existing full medical CDR backlog and to conduct the CDRs that become
due each year. To the extent that resources are not available to conduct the CDRs that
become due each year, SSA should report the reasons and the associated impact on
Federal benefit payments in its annual CDR Report to Congress.

AGENCY COMMENTS
SSA partially agreed with our recommendation. SSA disagreed with the portion of our
recommendation that suggested it report in the annual CDR Report to Congress the
reasons and associated impact on Federal benefit payments of not conducting all
CDRs that become due each year. According to SSA, the amount of time it takes to
prepare the annual CDR Report to Congress undermines the usefulness of reporting
this information. See Appendix D for the full text of SSA’s comments.

OIG RESPONSE
To be good stewards, SSA must ensure that it pays benefits only to those individuals
who continue to be entitled. To accomplish full stewardship, SSA needs to conduct the
full medical CDRs that become due each year so that benefits can be terminated for
individuals who are no longer entitled. This level of stewardship is of utmost importance
given the current and projected economic condition of the DI and OASI Trust Funds.
For example, DI program costs have exceeded tax revenues since 2005 and
exhaustion of the DI Trust Fund is projected for 2020. 18

The Act also specifies that benefit payments shall be made only from the applicable
                               19
Social Security Trust Fund. Consequently, if the DI Trust Fund becomes insolvent,
full Social Security disability benefits may not be paid on time. To help ensure the
solvency of the DI Trust Fund, SSA should conduct full medical CDRs when they
become due so that funds are not used to pay benefits to ineligible individuals.

Furthermore, in accordance with the President’s commitment to transparency and open
Government, we continue to believe SSA should fully disclose to Congress the reasons
and associated impact on Federal benefit payments of not conducting all CDRs that
become due each year. To ensure full transparency and accountability, SSA should
report this information to Congress as timely as possible.



                                                             Patrick P. O’Carroll, Jr.



18
  The 2009 Annual Report of the Board of Trustees of the Federal Old-Age and Survivors Insurance and
Federal Disability Insurance Trust Funds, May 12, 2009.
19
     The Social Security Act § 201(h), 42 U.S.C. § 401(h).
                                       Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Benefit Payments to Individuals with a Full Medical Continuing
             Disability Review in the Backlog

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                  Appendix A

Acronyms
Act           Social Security Act
CY            Calendar Year
C.F.R.        Code of Federal Regulations
CDR           Continuing Disability Review
DDS           Disability Determination Services
DI            Disability Insurance
FY            Fiscal Year
OASI          Old-Age and Survivors Insurance
Pub. L. No.   Public Law Number
SSA           Social Security Administration
SSI           Supplemental Security Income
U.S.C.        United States Code
                                                                                   Appendix B

Scope and Methodology
To complete the objectives of our review, we

     •   Reviewed applicable laws, regulations, and pertinent parts of the Program
         Operations Manual System related to continuing disability reviews (CDR).

     •   Reviewed the Social Security Administration’s (SSA) annual CDR Reports to
         Congress and the Office of Quality Performance Website information to obtain

            o   CDR cessation rates,
            o   the savings-to-cost ratio of CDRs,
            o   estimated benefit reductions related to CDR cessations, and
            o   cost to perform a CDR.

     •   Interviewed personnel from SSA’s Office of Quality Performance to obtain

            o the estimated CDR backlog each fiscal year,
            o the CDR selection process, and
            o an explanation of the growth in the backlog of CDRs.

     •   Calculated benefit payments related to the backlog of CDRs.

The entity reviewed was SSA’s Office of Operations. Our work was conducted at the
Office of Audit in Kansas City, Missouri, and SSA’s Headquarters in Baltimore,
Maryland, from March through November 2009. We determined that the data used in
this report were sufficiently reliable given the review objective and their intended use.
We conducted our review in accordance with the President’s Council on Integrity and
Efficiency’s 1 Quality Standards for Inspections.




1
  In January 2009, the President’s Council on Integrity and Efficiency was superseded by the Council of
the Inspectors General on Integrity and Efficiency, Inspector General Reform Act of 2008, Pub. L. No. 110-
409 § 7, 5 U.S.C. App. 3 § 11.
                                                                                    Appendix C

Benefit Payments to Individuals with a Full
Medical Continuing Disability Review in the
Backlog
From Calendar Year (CY) 2005 through CY 2010, we estimate the Social Security
Administration (SSA) will have made benefit payments of between $1.3 and $2.6 billion
that could have been avoided if the 1.5 million full medical continuing disability reviews
(CDR) in the backlog had been conducted when they became due. 1 Further, if the
number of full medical CDRs SSA plans to conduct in Fiscal Year (FY) 2011 remains
consistent with FY 2010, the 1.5-million full medical CDR backlog will remain and most
likely increase. Therefore, we estimate SSA will pay benefits from $556 million to
$1.1 billion during CY 2011 that could have been avoided if the full medical CDRs in the
backlog had been conducted when they became due.

Our estimates are based on the following methodology.
                                                                   Table C-1
1. SSA provided a file with almost                    FY 2010 CDRs Due by Original Due Date
   2.6 million CDRs due for FY 2010.                                 Number of      Percent
                                                      CDR Due Date
   This file included both full medical                                 CDRs        of Total
   and mailer CDRs. 3 Using                               2005
                                                               2
                                                                        250,322        10%
   information contained in this file, we                 2006          242,309         9%
   identified the original due dates for                  2007          387,015        15%
   these CDRs. Based on the original                      2008          579,124        23%
   due dates, we identified the                           2009          590,741        23%
   percentage of the 2.6 million CDRs                     2010          508,172        20%
   due each year since CY 2005 (see                       Total       2,557,683      100%
   Table C-1).




1
    SSA defines a “backlog” as CDRs due and selectable that are not able to be released for processing.
2
 These 250,322 CDRs had an original due date as early as 1968. Because of the small percentage of
CDRs due each year from 1968 through 2005, we grouped these CDRs together for our analysis. This is
a conservative approach to achieve the objective of our review.
3
  The 2.6 million CDRs had a due date of FY 2010 or earlier. This excludes CDRs that will not be selected
for processing due to various “screen out” reasons, even though they have a due date of FY 2010 or
earlier. Examples of “screen out” reasons include the beneficiary was not in current payment status, a
CDR was in process, or the claimant reached retirement age. However, cases screened out in FY 2010
may be subject to the same screen out criteria in subsequent years.


                                                    C-1
2. Of the 2.6 million CDRs due in FY 2010, SSA estimates 1.5 million full medical
   CDRs will not be conducted in FY 2010. 4 Since this is an estimate, SSA could not
   identify the specific 1.5 million full medical CDRs and their associated due dates.
   Therefore, we applied the annual percentages identified in Table C-1 to the
   1.5 million full medical CDRs to estimate their original due dates. 5 For example,
   Table C-1 shows that 10 percent of the 2.6 million full medical and mailer CDRs
   were originally due in 2005. Hence, we applied 10 percent to the 1.5 million full
   medical CDRs to estimate 146,806 full medical CDRs had a CY 2005 due date (see
   Table C-2).

                                           Table C-2
                               CDR Backlog by Estimated Due Date
                             CDR Due Estimated Number of Percent
                              Date     Full Medical CDRs    of Total
                              2005            146,806           10%
                              2006            142,107            9%
                              2007            226,972           15%
                              2008            339,638           23%
                              2009            346,451           23%
                              2010            298,027           20%
                              Total         1,500,001          100%

3. We estimated the numbers of full medical CDRs that would have ultimately resulted
   in a cessation if the CDRs were conducted in the year they became due.
   Historically, SSA estimated 12 percent of all CDRs conducted would ultimately result
   in a cessation of disability benefits, according to information obtained from SSA’s
   annual CDR Reports to Congress. 6 However, SSA typically conducts CDRs with the
   highest cessation rates first. Specifically, SSA typically conducts Title II adult and
   Title XVI child CDRs before Title XVI adult CDRs. Therefore, the backlog of CDRs
   may consist mainly of Title XVI adult cases, which have a historical cessation




4
 The remaining 1.1 million CDRs consist of mailer or full medical CDRs that will be conducted during
FY 2010 or will not be conducted due to various screen out reasons. See Footnote 3 for examples of
screen out reasons.
5
  SSA releases CDRs for processing based on a profile model that prioritizes CDRs based on a variety of
factors. Since CDR due date is only one of many factors that determines a CDR’s priority, we cannot
assume that the oldest CDRs will be released first.
6
  Information from the FY 2005 and FY 2006 CDR Reports to Congress revealed a 12-percent cessation
rate each year. For example, in FY 2005, SSA conducted 463,115 full medical CDRs, of which SSA
estimated 57,000 (12 percent) would ultimately result in a cessation after considering all appeals. The
cessation rate increased to 22 percent in FY 2007 and 18 percent in FY 2008 due to an increase in the
number of SSI age 18 redeterminations, which have high cessation rates. Since SSI age 18
redeterminations are not included in the CDR backlog, we used the historic cessation rate of 12 percent
for our analysis. The CDR Report for FY 2009 has not been released.


                                                  C-2
      rate of 6 percent. 7 Therefore, we estimated the number of full medical CDRs from
      Table C-2 that would ultimately result in a cessation based on a 6-percent and a
      12-percent cessation rate. For example, we applied 12 percent to the
      146,806 CDRs we estimated were originally due in CY 2005 and determined that
      17,617 CDRs would have ultimately resulted in a cessation if the CDRs had been
      conducted in CY 2005 (see Table C-3).

                                              Table C-3
                      Estimated Cessations if CDRs Were Conducted When Due
                            Assuming 6- and 12-Percent Cessation Rates
                          Estimated      Estimated Cessations     Estimated Cessations
          CDR Due
                       Number of Full    Assuming a 6-Percent     Assuming a 12-Percent
           Date                     8
                       Medical CDRs           Cessation Rate         Cessation Rate
             2005          146,806                 8,808                 17,617
             2006          142,107                 8,526                 17,053
             2007          226,972               13,618                  27,237
             2008          339,638               20,378                  40,757
             2009          346,451               20,787                  41,574
             2010          298,027               17,882                  35,763

4. Using cessation data and benefit payment reduction estimates from SSA’s CDR
   Reports to Congress, we calculated the benefit payments made to individuals whose
   CDRs would have resulted in a cessation of benefits if the CDRs had been
   conducted when they originally became due. We combined the estimated annual
   benefit payments for CYs 2005 through 2010 to arrive at the $1.3 to $2.6 billion in
   payments that could have potentially been avoided if the 1.5 million CDRs had been
   conducted in the years they became due (see Tables C-4 and C-5).

      Although SSA plans to conduct an increased number of full medical CDRs in
      FY 2011, the 1.5 million full medical CDR backlog will most likely remain. Therefore,
      we estimate SSA will pay between $556 million and $1.1 billion during CY 2011 to
      individuals who would potentially no longer be eligible if the full medical CDRs in the
      backlog had been conducted when due (see Tables C-4 and C-5). 9




7
  Information from FY 2005 through FY 2007 CDR Reports to Congress revealed a 6-percent cessation
rate for Title XVI adults each year. For example, in FY 2005, SSA conducted 110,072 full medical CDRs
on Title XVI adults, of which SSA estimated 6,300 (6 percent) would ultimately result in a cessation after
considering all appeals. In FY 2008, the cessation rate for Title XVI adults decreased to 5 percent. The
CDR Report for FY 2009 has not been released.
8
    See Table C-2.
9
 Since SSA re-profiles cases each year, some of the cases due for a CDR in FY 2010 may never
undergo a full medical CDR if circumstances change in future years.


                                                    C-3
                                                  Table C- 4
                                                                                                           10
Benefit Payments to Individuals with a Full Medical CDR in the Backlog Assuming a 6-Percent Cessation Rate
                                               CYs 2005 – 2011
                                                    Benefit Payments Made By CY
CDR Due Date        2005          2006           2007          2008          2009              2010           2011
          11
     2005
                 $16,999,440    $55,631,328    $57,947,832     $55,631,328    $50,989,512   $46,356,504     $44,040,000
 See Table C-6
     2006
                                $22,628,004    $55,964,664     $61,924,338    $57,158,304   $51,207,156     $48,819,876
 See Table C-7
     2007
                                               $11,343,794     $77,540,892    $88,898,304   $81,326,696     $79,433,794
 See Table C-8
     2008
                                                               $42,936,446   $126,608,514 $138,570,400     $131,519,612
 See Table C-9
     2009
                                                                              $43,798,209 $129,149,631     $141,351,600
See Table C-10
     2010
                                                                                            $37,677,374    $111,100,866
See Table C-11
Annual Benefit
                 $16,999,440    $78,259,332   $125,256,290    $238,033,004   $367,452,843 $484,287,761     $556,265,748
Payments
CYs 2005 –
2010 Benefit                                       $1,310,288,670
Payments


                                                   Table C- 5
                                                                                                            11
Benefit Payments to Individuals with a Full Medical CDR in the Backlog Assuming a 12-Percent Cessation Rate
                                                CYs 2005 – 2011
                                                    Benefit Payments Made By CY
CDR Due Date        2005          2006           2007          2008          2009              2010           2011
          12
     2005
                 $34,000,810   $111,268,972   $115,902,243    $111,268,972   $101,984,813   $92,718,271     $88,085,000
 See Table C-6
     2006
                                $45,258,662   $111,935,892    $123,855,939   $114,323,312 $102,420,318      $97,645,478
 See Table C-7
     2007
                                               $22,688,421    $155,087,478   $177,803,136 $162,659,364     $158,873,421
 See Table C-8
     2008
                                                               $85,874,999   $253,223,241 $277,147,600     $263,045,678
 See Table C-9
     2009
                                                                              $87,596,418 $258,299,262     $282,703,200
See Table C-10
     2010
                                                                                            $75,352,641     $222195,519
See Table C-11
Annual Benefit
                 $34,000,810   $156,527,634   $250,526,556    $476,087,388   $734,930,920 $968,597,456    $1,112,548,296
Payments
CYs 2005 –
2010 Benefit                                       $2,620,670,764
Payments
                                                  Table C-6
                        Benefit Payments Made During CYs 2005 – 2011 That Could Have
                        Been Avoided By Conducting CDRs That Became Due In CY 2005

       10
         Calculations in Tables C-4 and C-5 are based on data from SSA’s CDR Reports to Congress. Figures
       for CDRs due from CY 2009 through CY 2010 are based on the FY 2008 CDR Report to Congress since
       the FY 2009 report has not been released.
       11
        Under this analysis, full medical CDRs due in CY 2005 or earlier would have been conducted in
       CY 2005.


                                                        C-4
                                                                     6-Percent             12-Percent
                                                                   Cessation Rate         Cessation Rate
                                 Benefit Payments Made During CY 2005
 Reported Cessations: Estimated number of CDRs that
 ultimately resulted in a cessation of benefit payments in FY 2005
 as reported in the FY 2005 CDR Report to Congress.                         57,000                 57,000
 FY 2005 Reported SSA Benefit Reductions: Benefit payments
 not made in FY 2005 as a result of the CDR cessations as
                                                    12
 reported in the FY 2005 CDR Report to Congress.                     $110,000,000           $110,000,000
 Benefit Reduction per Cessation: Average benefit payments
 not made per ceased case in FY 2005 (calculated as FY 2005
                                                            13
 SSA Benefit Reductions divided by Reported Cessations).                    $1,930                 $1,930
 Estimated Cessations: Number of CDRs we estimate would
 have resulted in a cessation if the CDRs due in CY 2005 were
 conducted in CY 2005 (shown in Table C-3).                                  8,808                 17,617
 Benefit Payments in CY 2005: Benefit payments that would not
 have been made to individuals in CY 2005 if CDRs due in
 CY 2005 were conducted (calculated as Benefit Reduction per
 Cessation times Estimated Cessations).                               $16,999,440             $34,000,810
                                 Benefit Payments Made During CY 2006
 Reported Cessations                                                       57,000                 57,000
 FY 2006 Reported SSA Benefit Reductions                            $360,000,000            $360,000,000
 Benefit Reductions per Cessation                                          $6,316                 $6,316
 Estimated Cessations                                                       8,808                 17,617
 Benefit Payments in CY 2006                                         $55,631,328            $111,268,972
                                 Benefit Payments Made During CY 2007
 Reported Cessations                                                       57,000                 57,000
 FY 2007 Reported SSA Benefit Reductions                            $375,000,000            $375,000,000
 Benefit Reductions per Cessation                                          $6,579                 $6,579
 Estimated Cessations                                                       8,808                 17,617
 Benefit Payments in CY 2007                                         $57,947,832            $115,902,243
                                 Benefit Payments Made During CY 2008
 Reported Cessations                                                       57,000                 57,000
 FY 2008 Reported SSA Benefit Reductions                            $360,000,000            $360,000,000
 Benefit Reductions per Cessation                                          $6,316                 $6,316
 Estimated Cessations                                                       8,808                 17,617
 Benefit Payments in CY 2008                                         $55,631,328            $111,268,972
                                 Benefit Payments Made During CY 2009
 Reported Cessations                                                       57,000                 57,000
 FY 2009 Reported SSA Benefit Reductions                            $330,000,000            $330,000,000
 Benefit Reductions per Cessation                                          $5,789                 $5,789
 Estimated Cessations                                                       8,808                 17,617
 Benefit Payments in CY 2009                                         $50,989,512            $101,984,813

12
  The CDR Reports to Congress also provide estimated benefit reductions for the Medicare and Medicaid
programs, which we did not include in this analysis.
13
  The Benefit Reduction per Cessation amount may vary based on the types of CDRs conducted. For
example, cessations of Title XVI adults typically have lower average benefit reductions than Title II adults
and Title XVI children. Therefore, if the backlog of CDRs consists mainly of Title XVI adult cases, the
Benefit Reduction per Cessation would be lower than we estimated. However, we do not know the Benefit
Reduction per Cessation amount that is representative of the CDR backlog. Therefore, we chose to
calculate the amount based on SSA’s reported estimates of benefit payments not made as a result of all
CDR cessations.


                                                    C-5
                                           Table C-6
                Benefit Payments Made During CYs 2005 – 2011 That Could Have
                Been Avoided By Conducting CDRs That Became Due In CY 2005
                                                                 6-Percent     12-Percent
                                                               Cessation Rate Cessation Rate
                       Benefit Payments That Will Be Made During CY 2010
Reported Cessations                                                    57,000         57,000
FY 2010 Reported SSA Benefit Reductions                         $300,000,000   $300,000,000
Benefit Reductions per Cessation                                       $5,263         $5,263
Estimated Cessations                                                    8,808         17,617
Benefit Payments in CY 2010                                      $46,356,504    $92,718,271
                       Benefit Payments That Will Be Made During CY 2011
Reported Cessations                                                    57,000         57,000
FY 2011 Reported SSA Benefit Reductions                         $285,000,000   $285,000,000
Benefit Reductions per Cessation                                       $5,000         $5,000
Estimated Cessations                                                    8,808         17,617
Benefit Payments in CY 2011                                      $44,040,000    $88,085,000




                                            C-6
                                                  Table C-7
                    Benefit Payments Made During CYs 2006 – 2011 That Could Have
                    Been Avoided By Conducting CDRs That Became Due In CY 2006
                                                                       6-Percent      12-Percent
                                                                     Cessation Rate  Cessation Rate
                                   Benefit Payments Made During CY 2006
Reported Cessations: Estimated number of CDRs that ultimately
resulted in a cessation of benefit payments in FY 2006 as reported
in the FY 2006 CDR Report to Congress.                                       35,800            35,800
FY 2006 Reported SSA Benefit Reductions: Benefit payments
not made in FY 2006 as a result of the CDR cessations as reported
in the FY 2006 CDR Report to Congress.                                 $95,000,000       $95,000,000
Benefit Reduction per Cessation: Average benefit payments not
made per ceasd case in FY 2006 (calculated as FY 2006 SSA
Benefit Reductions divided by Reported Cessations).                          $2,654            $2,654
Estimated Cessations: Number of CDRs we estimate would have
resulted in a cessation if the CDRs due in CY 2006 were conducted
in CY 2006 (as shown in Table C-3).                                           8,526            17,053
Benefit Payments in CY 2006: Benefit payments that would not
have been made to individuals in CY 2006 if CDRs due in CY 2006
were conducted (calculated as Benefit Reduction per Cessation
times Estimated Cessations).                                           $22,628,004       $45,258,662
                                   Benefit Payments Made During CY 2007
Reported Cessations                                                          35,800            35,800
FY 2007 Reported SSA Benefit Reductions                               $235,000,000      $235,000,000
Benefit Reductions per Cessation                                             $6,564            $6,564
Estimated Cessations                                                          8,526            17,053
Benefit Payments in CY 2007                                            $55,964,664      $111,935,892
                                   Benefit Payments Made During CY 2008
Reported Cessations                                                          35,800            35,800
FY 2008 Reported SSA Benefit Reductions                               $260,000,000      $260,000,000
Benefit Reductions per Cessation                                             $7,263            $7,263
Estimated Cessations                                                          8,526            17,053
Benefit Payments in CY 2008                                             $61,924,338     $123,855,939
                                   Benefit Payments Made During CY 2009
 Reported Cessations                                                          35,800          35,800
 FY 2009 Reported SSA Benefit Reductions                               $240,000,000    $240,000,000
 Benefit Reductions per Cessation                                             $6,704          $6,704
 Estimated Cessations                                                          8,526          17,053
 Benefit Payments in CY 2009                                             $57,158,304   $114,323,312
                             Benefit Payments That Will Be Made During CY 2010
 Reported Cessations                                                          35,800          35,800
 FY 2010 Reported SSA Benefit Reductions                               $215,000,000    $215,000,000
 Benefit Reductions per Cessation                                             $6,006          $6,006
 Estimated Cessations                                                          8,526          17,053
 Benefit Payments in CY 2010                                             $51,207,156   $102,420,318
                             Benefit Payments That Will Be Made During CY 2011
  Reported Cessations                                                         35,800          35,800
  FY 2011 Reported SSA Benefit Reductions                              $205,000,000    $205,000,000
  Benefit Reductions per Cessation                                            $5,726          $5,726
  Estimated Cessations                                                         8,526          17,053
  Benefit Payments in CY 2011                                            $48,819,876    $97,645,478




                                                C-7
                                                 Table C-8
                  Benefit Payments Made During CY s 2007 – 2011 That Could Have
                   Been Avoided By Conducting CDRs That Became Due In CY 2007
                                                                       6-Percent     12-Percent
                                                                    Cessation Rate  Cessation Rate
                                  Benefit Payments Made During CY 2007
Reported Cessations: Estimated number of CDRs that ultimately
resulted in a cessation of benefit payments in FY 2007 as reported
in the FY 2007 CDR Report to Congress.                                       36,000         36,000
FY 2007 Reported SSA Benefit Reductions: Benefit payments
not made in FY 2007 as a result of the CDR cessations as reported
in the FY 2007 CDR Report to Congress.                                  $30,000,000    $30,000,000
Benefit Reduction per Cessation: Average benefit payments not
made per ceased case in FY 2007 (calculated as FY 2007 SSA
Benefit Reductions divided by Reported Cessations).                           $ 833           $ 833
Estimated Cessations: Number of CDRs we estimate would have
resulted in a cessation if the CDRs due in CY 2007 were conducted
in CY 2007 (shown in Table C-3).                                             13,618         27,237
Benefit Payments in CY 2007: Benefit payments that would not
have been made to individuals in CY 2007 if CDRs due in CY 2007
were conducted (calculated as Benefit Reduction per Cessation
times Estimated Cessations).                                            $11,343,794    $22,688,421
                                  Benefit Payments Made During CY 2008
Reported Cessations                                                          36,000         36,000
FY 2008 Reported SSA Benefit Reductions                               $205,000,000    $205,000,000
Benefit Reductions per Cessation                                             $5,694         $5,694
Estimated Cessations                                                         13,618         27,237
Benefit Payments in CY 2008                                             $77,540,892   $155,087,478
                                  Benefit Payments Made During CY 2009
Reported Cessations                                                          36,000         36,000
FY 2009 Reported SSA Benefit Reductions                               $235,000,000    $235,000,000
Benefit Reductions per Cessation                                             $6,528         $6,528
Estimated Cessations                                                         13,618         27,237
Benefit Payments in CY 2009                                             $88,898,304   $177,803,136
                            Benefit Payments That Will Be Made During CY 2010
Reported Cessations                                                          36,000         36,000
FY 2010 Reported SSA Benefit Reductions                               $215,000,000    $215,000,000
Benefit Reductions per Cessation                                             $5,972         $5,972
Estimated Cessations                                                         13,618         27,237
Benefit Payments in CY 2010                                             $81,326,696   $162,659,364
                            Benefit Payments That Will Be Made During CY 2011
Reported Cessations                                                          36,000         36,000
FY 2011 Reported SSA Benefit Reductions                                $210,000,000   $210,000,000
Benefit Reductions per Cessation                                             $5,833         $5,833
Estimated Cessations                                                         13,618         27,237
Benefit Payments in CY 2011                                             $79,433,794   $158,873,421




                                               C-8
                                                 Table C-9
                  Benefit Payments Made During CY s 2008 – 2011 That Could Have
                  Been Avoided By Conducting CDRs That Became Due In CY 2008
                                                                    6-Percent       12-Percent
                                                                  Cessation Rate   Cessation Rate
                                Benefit Payments Made During CY 2008
Reported Cessations: Estimated number of CDRs that
ultimately resulted in a cessation of benefit payments in FY 2008
as reported in the FY 2008 CDR Report to Congress.                          37,499         37,499
FY 2008 Reported SSA Benefit Reductions: Benefit
payments not made in FY 2008 as a result of the CDR
cessations as reported in the FY 2008 CDR Report to Congress.         $79,000,000     $79,000,000
Benefit Reduction per Cessation: Average benefit payments
not made per ceased case during the first year of cessation in
FY 2008 (calculated as FY 2008 SSA Benefit Reductions
divided by Reported Cessations).                                            $2,107         $2,107
Estimated Cessations: Number of CDRs we estimate would
have resulted in a cessation if the CDRs due in CY 2008 were
conducted in CY 2008 (shown in Table C-3).                                  20,378         40,757
Benefit Payments in CY 2008: Benefit payments that would
not have been made to individuals in CY 2008 if CDRs due in
CY 2008 were conducted (calculated as Benefit Reduction per
Cessation times Estimated Cessations).                                $42,936,446     $85,874,999
                                Benefit Payments Made During CY 2009
Reported Cessations                                                         37,499         37,499
FY 2009 Reported SSA Benefit Reductions                              $233,000,000    $233,000,000
Benefit Reduction per Cessation                                             $6,213         $6,213
Estimated Cessations                                                        20,378         40,757
Benefit Payments in CY 2009                                          $126,608,514    $253,223,241
                         Benefit Payments That Will Be Made During CY 2010
Reported Cessations                                                         37,499         37,499
FY 2010 Reported SSA Benefit Reductions                              $255,000,000    $255,000,000
Benefit Reduction per Cessation                                             $6,800         $6,800
Estimated Cessations                                                        20,378         40,757
Benefit Payments in CY 2010                                          $138,570,400    $277,147,600
                         Benefit Payments That Will Be Made During CY 2011
Reported Cessations                                                         37,499         37,499
FY 2011 Reported SSA Benefit Reductions                              $242,000,000   $242,000,000
Benefit Reductions per Cessation                                            $6,454         $6,454
Estimated Cessations                                                        20,378         40,757
Benefit Payments in CY 2011                                          $131,519,612   $263,045,678




                                              C-9
                                               Table C-10
                 Benefit Payments Made During CY s 2009 – 2011 That Could Have
                                                                                   14
                 Been Avoided By Conducting CDRs That Became Due In CY 2009
                                                                 6-Percent        12-Percent Cessation
                                                               Cessation Rate            Rate
                                 Benefit Payments Made During CY 2009
Benefit Reduction per Cessation: Average benefit payments
not made per ceased case during the first year of cessation in
FY 2008 (calculated in Table C-9).                                         $2,107            $2,107
Estimated Cessations: Number of CDRs we estimate would
have resulted in a cessation if the CDRs due in CY 2009 were
conducted in CY 2009 (shown in Table C-3).                                 20,787            41,574
Benefit Payments in CY 2009: Benefit payments that would not
have been made to individuals in CY 2009 if CDRs due in
CY 2009 were conducted (calculated as Benefit Reduction per
Cessation times Estimated Cessations).                                $43,798,209      $87,596,418
                        Benefit Payments That Will Be Made During CY 2010
Benefit Reduction per Cessation                                            $6,213            $6,213
Estimated Cessations                                                       20,787            41,574
Benefit Payments in CY 2010                                         $129,149,631      $258,299,262
                        Benefit Payments That Will Be Made During CY 2011
Benefit Reductions per Cessation                                           $6,800            $6,800
Estimated Cessations                                                       20,787            41,574
Benefit Payments in CY 2011                                         $141,351,600      $282,703,200




14
  The FY 2009 CDR Report to Congress has not been released. Therefore, for the analysis based on
CDRs due in CY 2009, we used the Benefit Reduction per Cessation calculations from FY 2008 (see
Table C-9). For example, for cases ceased in FY 2008, the Benefit Reduction per Cessation was
$2,107 for the first year cases were ceased. Therefore, for cases ceased in CY 2009, we used the
$2,107 Benefit Reduction per Cessation rate for the first year. For the second year cases were ceased,
we used the $6,213 Benefit Reduction per Cessation rate.


                                                  C-10
                                          Table C-11
                  Benefit Payments Made During CY s 2010 – 2011 That Could Be
                                                                           15
                   Avoided By Conducting CDRs That Became Due In CY 2010
                                                                      6-Percent          12-Percent
                                                                    Cessation Rate      Cessation Rate
                            Benefit Payments That Will Be Made During CY 2010
Benefit Reduction per Cessation: Average benefit payments not
made per ceased case during the first year of cessation in FY 2008
(calculated in Table C-9).                                                  $2,107               $2,107
Estimated Cessations: Number of CDRs we estimate would have
resulted in a cessation if the CDRs due in CY 2010 were conducted
in CY 2010 (shown in Table C-3).                                            17,882               35,763
Benefit Payments in CY 2010: Benefit payments that would be
made to individuals in CY 2010 if CDRs due in CY 2010 were
conducted (calculated as Benefit Reduction per Cessation times
Estimated Cessations).                                                 $37,677,374          $75,352,641
                            Benefit Payments That Will Be Made During CY 2011
Benefit Reductions per Cessation                                            $6,213               $6,213
Estimated Cessations                                                        17,882               35,763
Benefit Payments in CY 2011                                           $111,100,866         $222,195,519




15
   SSA is in the process of conducting FY 2010 CDRs and the FY 2009 CDR Report to Congress has not
been released. Therefore, for the analysis based on CDRs due in CY 2010, we used the Benefit
Reduction per Cessation calculations from FY 2008 (see Table C-9). For example, for cases ceased in
FY 2008, the Benefit Reduction per Cessation was $2,107 for the first year cases were ceased.
Therefore, for cases ceased in CY 2010, we used the $2,107 Benefit Reduction per Cessation rate for the
first year. For the second year cases would be ceased, we used the $6,213 Benefit Reduction per
Cessation rate.


                                                 C-11
                  Appendix D

Agency Comments
                                          SOCIAL SECURITY


MEMORANDUM


Date:      March 22, 2010                                                           Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Executive Counselor
           to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, "Full Medical Continuing Disability
           Reviews" (A-07-09-29147)--INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. We have attached our response to the report findings and
           recommendation.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

           Attachment




                                                           D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “FULL MEDICAL CONTINUING DISABILITY REVIEWS” (A-07-09-29147)

We recognize the tremendous stewardship challenge we face in addressing the increasing number
of initial disability claims and the forecasted growth of initial claims pending. We do agree it is
beneficial for us to process more continuing disability reviews (CDR) and that significant
program savings would occur if we were able to process all CDRs in the backlog. We appreciate
your recognition of the significant barriers in processing all of the full medical CDRs that are due
or overdue. We will continue to work aggressively to secure a steady stream of dedicated
funding to process all the CDRs that are coming due and to work down the backlog over time.
However, we recognize that even with the receipt of additional funding, the processing of CDRs
cannot come at the expense of other critical workloads. We received significant funding in our
fiscal year (FY) 2010 budget to increase hiring in the disability determination services (DDS) to
address the increase in initial disability claims. Our intent is to reduce the claims pending to
pre-recession levels over the next few years, and once we achieve that, more resources will be
available to address the integrity workloads.

Recommendation

We recommend SSA work with Congress to secure the funds necessary to eliminate the existing
full medical CDR backlog and to conduct the CDRs that become due each year. To the extent
resources are not available to conduct the CDRs that become due each year, SSA should report
the reasons and the associated impact on Federal benefit payments in its annual report to
Congress.

Comment

We partially agree. We believe this recommendation should be amended to state we continue to
work with Congress to secure funds for full medical CDRs, as we have in fact worked diligently
with our oversight and appropriations committees to address the existing full medical CDR
backlog and to secure additional funds up to this point.

We disagree with the second part of this recommendation. Processing more full medical CDRs
is not a simple resource issue that can be isolated in a report separate from the rest of our annual
budget request. To process more full medical CDRs, we must have sufficient resources to
increase our overall capacity to do more program integrity reviews while handling the growing
initial claims workloads. Moreover, the amount of time it takes to prepare the annual report to
Congress undermines the usefulness of including this type of information in the annual report.
Almost a full fiscal year elapses before the information needed to complete the current report is
available. By that point, we are well on our way to developing our budget and workload
projections for the fiscal year that will occur three years out. For example, the FY 2008 annual
report was issued in December 2009 while we were developing our FY 2011 budget.

Furthermore, we already exceed all the statutory requirements set by Congress for the annual
report, as we continue to report the estimated administrative costs, savings, and cost effectiveness
of conducting CDRs.

                                                 D-2
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Kansas City Audit Division
   Tonya Eickman, Audit Manager

Acknowledgments

In addition to those named above:

   Kenneth Bennett, IT Specialist
   Brennan Kraje, Statistician

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-07-09-29147.
                                 DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government Reform


Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
